                               Performance Audit Report



                     Improving Accuracy of Performance Reporting to
                Better Manage Disaster Loan Processing Time Expectations




                                      Final Report
                                  For Official Use Only



                                            .




June 30, 2014                                                     Report Number 14-14
                                 U.S. Small Business Administration
                                     Office of Inspector General
                                       Washington, D.C. 20416


                                                                               FINAL REPORT TRANSMITTAL
                                                                                       REPORT NO. 14-14

DATE:           JUNE 30, 2014

TO:             James Rivera, Associate Administrator
                Office of Disaster Assistance

SUBJECT:        Improving Accuracy of Performance Reporting to Better Manage Disaster Loan
                Processing Time Expectations

This report presents the results of our audit of the Small Business Administration’s disaster loan
processing times. The objectives of our audit were to determine whether the SBA met its processing
time goals for disaster loans published in its Congressional Budget Justification and Annual Performance
Report and whether the published goals were attainable.

We conducted this audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient and appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We appreciate the courtesies and cooperation of the SBA extended to the staff during this audit.
Please direct any questions to me at (202) 205-6587 or Andrea Rambow, Acting Director, Credit
Programs Group at (202) 205-4428.
                                                  ***

/s/
Robert A. Westbrooks
Deputy Inspector General
Executive Summary
Improving Accuracy of Performance Reporting
To Better Manage Disaster Loan Processing Time Expectations

                                                                                  Report Number 14-14

What the OIG Reviewed                                     Because of the methodology it used to compute
                                                          processing time for disaster loan applications, the
This report presents the results of our audit of the      SBA’s reported performance did not accurately
SBA’s disaster loan processing times. The audit was       communicate to eligible applicants and oversight
conducted due to longer than normal disaster loan         officials how long it took staff to process loan
processing times experienced during Hurricane             applications. We also found that processing time
Sandy.                                                    performance standards were generally not
                                                          attainable beyond certain application volume levels.
The objectives of our audit were to determine
whether the SBA met its processing time goals for         OIG Recommendations
disaster loans published in its Congressional Budget
Justification and Annual Performance Reports (CBJs)       The OIG recommended that the SBA report the
and whether the published goals were attainable.          processing time for automatically declined
                                                          applications and pre-loss verification declined
To achieve these objectives, we evaluated the             applications separately from applications that
processing time data for all disaster loan applications   require more extensive processing, rather than
with a loan approval or denial decision from October      continue averaging these processing times together.
1, 2008, to December 31, 2013. We performed our           Additionally, the OIG recommended that the SBA
own computation of the total time elapsed from the        establish disaster loan processing time goals based
date of application acceptance to the decision date,      on actual average processing times, net of automatic
including the time between each reacceptance and          declinations and quick rejections performed prior to
withdrawal of the application, if any. Additionally,      loss verification. Further, we recommended that the
we performed site visits at the Fort Worth                established goals also consider the full processing
Processing and Disbursement Center and interviews         time for all applications with withdrawals that had
with Loan Officers and Senior Loan Officers who           reacceptances.
processed Hurricane Sandy disaster loans. Finally,
we interviewed key officials from the Office of           Finally, the OIG recommended that the SBA establish
Disaster Assistance regarding processing standards        processing time standards for different application
and goals for Hurricane Sandy, and for fiscal years       volumes based on historical performance and
prior to Hurricane Sandy.                                 include anticipated processing time standards for a
                                                          range of possible application volumes in the annual
What the OIG Found                                        Congressional Budget Justification and Annual
                                                          Performance Report.
We determined that the SBA was generally unable to
attain its disaster loan processing time performance
goals unless it included applications that were
automatically declined or quickly rejected before
loss verification.      The SBA’s reported average
processing time—as published in its Congressional
Budget Justification and Annual Performance
Reports—included the processing time for these two
types of declinations.         However, the SBA’s
computation did not include all of the processing
time for applications previously submitted and
withdrawn, but later reaccepted. In such instances,
the SBA only used the days elapsed between the last
reacceptance and the decision date.
Table of Contents
Introduction ................................................................................................................................................. 2
Background .................................................................................................................................................. 2
Results .......................................................................................................................................................... 4
   Finding 1: The SBA Generally Did Not Meet Its Disaster Loan Processing Time Goals for Business
   Loans and EIDLs ...................................................................................................................................... 4
   Finding 2: The SBA’s Processing Time Goals Were Not Always Achieved During Periods of High
   Application Volume ................................................................................................................................. 8
Conclusion.................................................................................................................................................... 9
Recommendation(s).................................................................................................................................. 10
Agency Comments and OIG Response ..................................................................................................... 10
Appendix I: Scope and Methodology....................................................................................................... 14
Appendix II: Management Comments ..................................................................................................... 16




                                                                                 1
Introduction

This report presents the results of our audit of the Small Business Administration’s (SBA) disaster loan
processing times. The audit was conducted due to longer than normal disaster loan processing times
experienced following Hurricane Sandy. The objectives of our audit were to determine whether the SBA
met its processing time goals for disaster loans and whether its published goals were attainable.

The scope of the audit was limited to a review of the accuracy and attainability of disaster loan
processing time goals from FY 2008 to FY 2013, as published in the annual Congressional Budget
Justification and Annual Report (CBJ). To answer the audit objectives, we obtained raw data containing
all disaster loan applications with a loan approval or denial decision from January 1, 2007, to December
31, 2013. We used the data from FY 2007 to determine the beginning inventory of loans as of October
1, 2008. We performed our own computation of the total time elapsed from the date of application
receipt to the decision date, including the time between each reacceptance and withdrawal of the
application, if any. Additionally, we visited the Fort Worth Processing and Disbursement Center and
interviewed loan officers and senior loan officers who processed Hurricane Sandy disaster loans. Finally,
we interviewed key officials from the Office of Disaster Assistance regarding processing standards and
goals for Hurricane Sandy and for fiscal years prior to Hurricane Sandy.

We conducted this audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient and appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Background
The SBA provides long-term disaster recovery loans to homeowners, renters, businesses of all sizes, and
nonprofit organizations who are victims of a declared disaster. The four major disaster loans programs
are: (1) home and personal property loans, (2) business physical disaster loans, (3) economic injury
disaster loans (EIDLs) disaster business loans and, (4) Military Reservist EIDL loans. As of March 2013,
the SBA had provided nearly two million disaster loans totaling $52 billion. For the past 10 years, the
SBA provided disaster loans totaling, on average, approximately $1.1 billion per year and has an active
portfolio of approximately $8 billion in disaster loans.

On October 29, 2012, Hurricane Sandy made landfall in southern New Jersey. The massive storm
affected several states along the east coast. Subsequently, the President issued thirteen major disaster
declarations for Hurricane Sandy. The SBA processed 122,798 disaster loan applications in FY 2013, with
approximately 85,000 applications (70 percent) related to Hurricane Sandy. This was more than double
the number of applications processed in each of the preceding three years.

According to a May 2013 report by Ranking Member Nydia M. Velázquez (D-NY) of the House
Committee on Small Business, “homeowners and businesses impacted by Sandy experienced processing
delays of 30 days and 46 days, respectively.” According to this report, business loan approval rates were
also down compared to previous disasters.



                                                    2
The SBA sets annual disaster loan application processing time standards. These standards are intended
to convey to Congress and other stakeholders the expected length of time to process a disaster loan
with the requested budgetary funding. These standards may also create service-level expectations in
the minds of applicants, inform staffing level decisions in response to volume surges, and create
performance expectations for program oversight officials. The target operating standards, as noted in
the CBJ, are listed below.

Table 1 CBJ Target Operating Standards for Disaster Loan Processing

Application Type               FY 2008          FY 2009         FY 2010        FY 2011         FY 2012   FY 2013
Home                           10 days          14 days         14 days        14 days         18 days   27 days
Business Physical              16 days          18 days         18 days        18 days         21 days   30 days
EIDL                           16 days          18 days         18 days        18 days         21 days   30 days
Source: FY 2013 Congressional Budget Justification and FY 2011 Annual Performance Report

As reported in the Congressional Budget Justification, the SBA’s goal was to process 85 percent of
applications within the target operating standards noted above. The SBA reported that it met its
disaster loan processing time goals from FY 2008 through FY 2013, except for business loans and EIDLs in
FY 2009, and all loan types in FY 2013. We noted, however, that the SBA calculated its actual
performance against a 14-day standard for home loan applications and an 18-day standard for business
and EIDL for FY 2012 and FY 2013, rather than the standards specified in the CBJ.

The pre-loss verification (LV) process identifies applications having a very low likelihood of being
approved based on the applicant’s credit, repayment ability or other eligibility restrictions. Sometimes
an applicant’s credit history indicates a credit decline decision is obvious, therefore, the disaster credit
management system automatically declines these applications. These files initially bypass the LV
process. Applications that are not automatically declined or routed to the pre-LV review queue are
submitted for regular processing.

Initially, we began this audit to determine whether approval rates for Hurricane Sandy were consistent
with other major disasters and whether processing times for Hurricane Sandy met established
standards. We modified the objective of this audit in the survey phase after our preliminary work
indicated that Hurricane Sandy approval rates exceeded the approval rates from previous large
disasters. We also modified the objective in an effort to coordinate and avoid duplication with the
Government Accountability Office who is conducting an audit of approval times and rates and other
issues relating to disaster business loans.

Nature of Limited or Omitted Information

No information was omitted due to confidentiality or sensitivity, nor were there limitations to
information on this audit.

Review of Internal Controls

The Office of Management and Budget (OMB) Circular A-1231 provides guidance to federal managers on
improving the accountability and effectiveness of federal programs and operations by establishing,
assessing, correcting, and reporting on internal controls.

1
    OMB Circular A-123, Management’s Responsibility for Internal Control, December 21, 2004.

                                                               3
The scope of this audit was limited to a review of disaster loan processing time standards, goals, and the
SBA’s ability to meet them. Therefore, we limited our assessment of internal controls to an evaluation
of the controls governing disaster loan processing time performance. We attempted to identify internal
controls governing the achievement of desired processing time standards and goals. However, we
determined that there were limited internal controls in place to ensure timely disaster loan processing,
to ensure adherence to the processing time standards, or to implement specific planned corrective
actions when the SBA began to miss its defined processing time goals. The existing controls were not
operating as intended and were, therefore, unsuccessful in facilitating timely loan processing.

Results
According to our analysis, the SBA was generally unable to meet its disaster loan processing time
performance goals. However, the methodology the SBA used to compute processing time led Agency
officials to believe it had met most of the processing time performance goals between FY 2008 and FY
2013. This occurred because it included applications that were automatically declined or quickly
rejected before loss verification based on the applicant’s credit or repayment ability or the property
eligibility. Our analysis identified that these applications represented approximately 40 percent of the
total application volume received between FY 2008 and FY 2013. The SBA did not recognize that by
including these applications, it was distorting the average processing time for the 60 percent of
applications that had to be fully processed.

Further, the SBA’s reported processing time did not include time spent on applications that were
previously submitted and withdrawn, and later reaccepted by the SBA for processing. In such instances,
the SBA only used the days elapsed between the last reacceptance and the decision date. By employing
this methodology, the SBA’s reported performance did not clearly communicate to applicants, Congress,
and other oversight officials how long it took staff to process the majority of the disaster loan
applications received. Although the SBA believed it had accurately captured the average processing
time for all disaster applications received, the reported performance was distorted by the 40 percent of
applications requiring limited processing. Eligible applicants and oversight officials lack a realistic
estimate of how long it takes staff to process loan applications because of this methodology and it leads
to criticism about program performance when loan application processing takes longer than
anticipated. We also found that processing time performance goals were generally not achieved
beyond certain application volume levels.

Finding 1: The SBA Generally Did Not Meet Its Disaster Loan Processing Time
Goals for Business Loans and EIDLs

The SBA reported that it met its disaster loan processing time goals from FY 2008 through FY 2012,
except for business loans and EIDLs in FY 2009 and all loan types in FY 2013. Our analysis, however,
found that the SBA generally did not meet its processing time goals for business loans and EIDLs for the
entire period of fiscal years 2008 through 2013. The primary reason for the difference between what the
SBA reported and what the OIG determined was the methodology used to compute actual processing
time. When automatically declined and pre-LV declined applications were included and the full
processing time for reaccepted applications was not included in the calculation, the SBA appeared to
meet its processing time goals some of the time. However, we determined that with the exception of
one fiscal year in which the SBA met its processing time goal for EIDLs, the SBA missed its goals by as

                                                    4
much as 62 percent for both business loans and EIDLs. Our analysis did show, however, that the SBA
met its goals for home loans in three of the six fiscal years.2

The Government Performance and Results Modernization Act (GPRA) requires that the SBA review the
success of achieving its performance goals each fiscal year. The Agency is also required to explain and
describe where a performance goal has not been met, why the goal was not met, the plans for achieving
the established goal, and if the performance goal is impractical or infeasible, why that is the case, and
what action is recommended. Further, OMB Circular A-129 requires Federal agencies to submit timely
and accurate financial management and performance data to OMB and Treasury, to support evaluation
of the Government’s credit management and debt collection programs and policies.

To comply with these performance reporting requirements, the SBA incorporates its performance into
its annual Congressional Budget Justification. The SBA’s performance goal for disaster loan processing
time, as stated in its FY 2015 CBJ, was to process 85 percent of applications received within the
established time standards. These time standards are based upon the number of days the SBA needs to
complete application processing in all four of the following loan processing departments: application
intake, loss verification,3 processing, and legal review.

Table 2 Estimated Processing Days per Department

                Department                  Home Loan Applications           Business Loan Applications
    Application Intake                                2                                  2
    Loss Verification                                 4                                  5
    Loan Officer Processing                           6                                  9
    Legal Review                                      2                                  2
     TOTAL                                           14                                  18
Source: Information provided by the SBA Processing and Disbursement Center

We found that the methodology used by the SBA did not result in an accurate reflection of the amount
of time it took to process a disaster loan. When calculating disaster loan processing times, the SBA
included applications that were automatically declined by the Disaster Credit Management System
(DCMS) as a result of the applicant’s lower than acceptable credit score. It also included applications
that were rejected by SBA staff based on the applicant’s credit or repayment ability, or ineligible
property. These applications were rejected prior to loss verification, processing, and legal review, which
can account for approximately 86 percent of home loan processing time and 89 percent of business and
economic injury loan processing time.

According to DCMS data, for the six-year period from FY 2008 through FY 2013, the average processing
time for an automatically declined application was 1.92 days. 4 The average processing time for
applications declined before loss verification was 2.39 days.5 These two types of declined applications
accounted for approximately 40 percent of the disaster loan applications the SBA processed in the six
year period from FY 2008 through FY 2013. The SBA considered it appropriate to include these
applications in its processing time computation because the applications were processed to a decision.

2
  We determined the SBA met its processing time goals for home loans FY 2010, FY 2011, and FY 2012. We also determined the
SBA did not meet its goals for home loans for FY 2008, FY 2009, or FY 2013.
3
  Loss Verification is the process during which an SBA representative physically inspects the applicant’s damaged property and
verifies the amount needed to repair or replace disaster-damaged property.
4
  The figure is an average for the period and is not a weighted average.
5
  The figure is an average for the period and is not a weighted average.

                                                              5
However, by including these minimally processed applications, the average processing time appeared to
be significantly less and therefore, the SBA presented an average processing time in the annual CBJ that
was unattainable for the majority of disaster loans it processed.

The SBA did not need to apply its goal of processing 85 percent of applications received within various
standard processing times to the auto and pre-LV declined applications. Historically, between FY 2008
and FY 2013, these types of decisions took between 1.92 days and 2.39 days to process. The SBA’s
standard processing time for home loan applications fluctuated between 10 and 27 days from FY 2008
to FY 2013. Its standard processing time for business and EIDL applications fluctuated between 16 and
30 days during this period. Because the average processing time for automatically declined and pre-LV
declined decisions was approximately two days, the goal to process 85 percent of applications within
the standard processing times was not relevant to these types of decisions.

Standard loan processing took significantly longer than applications automatically declined or those
rejected prior to loss verification. We believe the SBA was successful in increasing program efficiency
through the use of automatic declinations and rejections prior to loss verification. However, including
the processing time for these minimally processed applications in its average processing times distorted
the actual time needed to fully process the majority of disaster loan applications. As a result, eligible
applicants and oversight officials did not have a realistic estimate of how long it would take staff to
perform standard processing for loan applications. Reporting the processing time for applications
automatically declined or rejected prior to loss verification separately from applications that required
standard processing, provides a more accurate indication of processing time performance for
applications that require standard processing.

The SBA’s reported processing time also did not include all the time spent on an application that had
been previously submitted and withdrawn, but later reaccepted. In such instances, the SBA only used
the time elapsed between the last reacceptance and the decision date. This methodology did not
account for all staff hours spent processing the same loan application; therefore, in our view it is not an
accurate representation of the true processing time.

As shown in the graphs below, the SBA’s processing time goal attainment reported in the FY 2015 CBJ
compared to actual goal attainment, as computed by the OIG, differed significantly for each type of
loan.




                                                     6
Graph 1 - Reported vs. Actual Processing Times - Business Loans

 100%
                                                                                            85% Goal
   90%
   80%
   70%
   60%
   50%
   40%
   30%
   20%
   10%
    0%
             FY 2008         FY 2009         FY 2010         FY 2011         FY 2012         FY 2013

                            Business Loans – SBA          Business Loans - Actual

Source(s): (1) FY 2015 Congressional Budget Justification and FY 2013 Annual Performance Report
(2) OIG calculation of processing time performance based upon disaster loan application data extracted from DCMS.

Graph 2 - Reported vs. Actual Processing Times - EIDLs

 100%
                                                                                              85% Goal
   90%

   80%

   70%

   60%

   50%

   40%

   30%

   20%

   10%

    0%
             FY 2008         FY 2009         FY 2010         FY 2011         FY 2012         FY 2013

                                 EIDL Loans – SBA        EIDL Loans - Actual

Source(s): (1) FY 2015 Congressional Budget Justification and FY 2013 Annual Performance Report
(2) OIG calculation of processing time performance based upon disaster loan application data extracted from DCMS.




                                                             7
Graph 3 - Reported vs. Actual Processing Times – Home Loans

 100%
   90%                                                                                        85% Goal
   80%
   70%
   60%
   50%
   40%
   30%
   20%
   10%
    0%
              FY 2008         FY 2009         FY 2010         FY 2011         FY 2012         FY 2013

                                Home Loans - SBA         Home Loans - Actual

Source(s): (1) FY 2015 Congressional Budget Justification and FY 2013 Annual Performance Report
(2) OIG calculation of processing time performance based upon disaster loan application data extracted from DCMS.


Finding 2: The SBA’s Processing Time Goals Were Not Always Achieved during
Periods of High Application Volume

For FY 2013, the SBA set processing time standards of 27 days for home loan applications and 30 days
for business loans and EIDLs. The SBA’s goal was to process 85 percent of the disaster loan applications
within these standards. These standards were included in the agency’s CBJ and Annual Performance
Report. In its FY 2013 Disaster Preparedness and Recovery Plan, the SBA reported that it could process
up to 100,000 disaster loan applications using its “routine on-board strength, operations processes, and
infrastructure capacity within its performance goal of 21 days (from receipt of the application to
decision).” While the two documents provided different processing time standards, the SBA generally
did not meet its goals for business loans and EIDLs for either time standard.

We also found that the SBA’s processing time goals were not always attainable during periods of high
application volume. Based upon our analysis, from FY 2008 to 2013, when the SBA received over 3,000
applications per month, it began to significantly fall short of its processing time goals. We adjusted the
processing times by removing applications automatically declined by DCMS as a result of the applicant’s
lower than acceptable credit score and those quickly rejected through an abbreviated manual review or
due to ineligible property. We also included the full processing time for applications with withdrawals
and reacceptances. When we calculated the final processing times, the higher the application volume
rose, the less frequently the SBA met its processing time goals as seen in the graph below.




                                                             8
Graph 4 - Processing Time Goal Attainment at Various Application Volumes

  100%
   90%
   80%
   70%                                                                                                       85% Goal

   60%
   50%
   40%
   30%
   20%
   10%
     0%
                     < 3,000                     > 3,000                     > 5,000                     > 10,000

                                                  Monthly Application Volume

                        Business Loans             Economic Injury Disaster Loans               Home Loans

Source: Disaster loan applications received and processed to a decision between FY 2008 and FY 2013, extracted from DCMS,
excluding automatically declined and pre-loss verification declined applications and including all processing time for loans
withdrawn and reaccepted.

The SBA did not consider potential increases in loan application volumes when establishing its disaster
loan processing time standards. Rather, the Agency established one standard in its CBJ for each loan
type, regardless of application volume. However, our analysis found that application volume
significantly impacted the amount of time the SBA needed to fully process loan applications. The SBA
cannot anticipate the volume of disaster activity that may occur, however, disaster loan processing time
is highly dependent upon application volume. Therefore, if the SBA were to provide estimated
processing standards based upon various levels of disaster activity, stakeholders would have more
realistic estimates of anticipated disaster loan processing time. Providing only one standard for
processing time, regardless of the application volume, does not inform users of the expected processing
time when a higher volume of applications is received as a result of greater disaster activity.

Because the SBA did not consider the impact of loan application volume when creating its disaster loan
processing time standards, it was unable to provide accurate estimates of anticipated loan processing
time to disaster victims, Congress, and the public. Agency officials stated that they recognize the need
to improve the ability to provide more realistic expectations regarding disaster loan application
processing time when it receives higher than normal loan application volumes.

Conclusion

The SBA generally did not meet its processing time goals for disaster loans and its methodology of
calculating application processing time did not provide eligible applicants and oversight officials with a
realistic estimate of how long it would take staff to process loan applications. Additionally, the SBA’s

                                                              9
processing time goals were not always attainable during periods of high application volume, as the SBA
was generally unable to meet its processing time goals when the application volume exceeded 3,000
applications per month. We believe the SBA could better manage the expectations of disaster victims
and other stakeholders by revising its methodology for computing disaster loan processing times to
more accurately reflect the time needed to fully process a disaster loan to a final decision. Providing
anticipated processing times for various application volumes would also contribute to managing
expectations of those who rely upon the SBA to accurately estimate and report disaster loan processing
times.

Recommendation(s)
1) Report the processing time for automatically declined applications and pre-loss verification declined
   applications separately from applications that require more extensive processing, rather than
   continue averaging these processing times together.

2) Establish and report disaster loan processing time goals based on actual average processing times,
   net of automatically declined and pre-loss verification declined applications. Additionally, we
   recommend the established goals also consider the full processing time for all applications with
   withdrawals that had reacceptances.

3) Establish processing time standards for different application volumes based on historical
   performance, and include anticipated processing time standards for a range of possible application
   volumes in the annual Congressional Budget Justification and Annual Performance Report.


Agency Comments and OIG Response
On May 21, 2014, we provided a draft copy of this report to SBA management for comment. On June
19, 2014, SBA management provided a formal response, which is included in its entirety in Appendix II.
A summary of management’s comments and our response follows.

The SBA agreed with one recommendation, partially agreed with one recommendation and disagreed
with one recommendation. The SBA management stated it has already established approximate
processing time standards for a range of possible application volumes, which are included in the most
recent update of ODA’s Disaster Playbook and will be included in the 2014 Disaster Preparedness and
Recovery Plan. Furthermore, management agreed to work with OCFO to include those standards in the
Congressional Budget Report and Annual Performance Plan.

The SBA management partially agreed with the OIG recommendation to establish and report disaster
loan processing time goals based on actual average processing times. The SBA management agreed to
explore whether there is a way to consider “reaccepted withdrawals” without double counting time
already spent on the application. However, management did not agree to establish and report average
processing time goals net of auto and pre-LV decline actions. Management stated the auto and pre-LV
decline actions represent a key portion of ODA’s loan volume; therefore, removing them would result in
a misrepresentation of ODA’s actual performance outputs, outcomes and overall efficiency of
operations.



                                                   10
The Agency management disagreed with the OIG recommendation to report the processing time for
automatically declined applications and pre-loss verification declined applications separately from
applications that require more extensive processing, rather than continue averaging these processing
times together. Management stated that ignoring the processing time for auto and pre-LV decline
actions would present an incomplete picture of ODA’s performance. The ODA will continue its
consistent reporting of average processing times for applications, including auto and pre-LV declined
applications.

Recommendation 1 - Report the processing time for automatically declined applications and pre-loss
verification declined applications separately from applications that require more extensive
processing, rather than continue averaging these processing times together.

        Management Comments (Verbatim)

        ODA disagrees with this recommendation. We believe it is important to continue to include all
        processed applications when calculating and reporting average processing times. The
        methodology used by OIG to arrive at its recommendation to exclude auto and pre-LV declines
        from the average processing time calculation is flawed because it would result in an inaccurate
        representation of ODA’s full performance. ODA places great importance on the collection and
        analysis of disaster-related data and on the integrity of that data. The methodology applied is
        based on the time it takes to process an approval, decline or withdrawal action, which involves
        one or more of the following loan processing functions: application intake, loss verification,
        processing and legal review. Ignoring the processing time for auto and pre-LV decline actions
        would present an incomplete picture of ODA’s performance. ODA will continue its consistent
        reporting of average processing times for applications, including auto and pre-LV declined
        applications.

        As an alternative to the OIG recommendation, ODA would agree to make available upon request
        the processing times of auto declines, pre-LV declines, and all other applications processed.
        ODA also will continue to enhance its communications efforts to disaster survivors and
        stakeholders to ensure awareness of estimated processing times.

        OIG Response

        The SBA’s FY 2015 Congressional Budget Justification and Annual Performance Report included a
        strategic goal to ensure disaster assistance could be deployed quickly, effectively, and efficiently
        in order to preserve jobs and help return small businesses to operation. The SBA’s processing
        time goals are intended to ensure that the SBA quickly, effectively and efficiently provides
        disaster loans. We recognize the efficiencies realized with auto and pre-LV declines; however,
        we believe including them in average processing times does not present a realistic estimate for
        qualified applicants.

        The SBA is using the auto and pre-LV decline to quickly process applications submitted by
        unqualified applicants within approximately two to three days. It is the remainder of the
        applicant population, however, who would benefit from a more accurate estimate of the
        anticipated processing time. Including the auto and pre-LV declined applications distorts the
        average processing time for the qualified applicants.


                                                    11
       Management’s comments were not responsive to recommendation one. The alternative the
       ODA suggested, which is to make available, upon request, the processing times of auto declines,
       pre-LV declines, and all other applications processed, does not satisfy the need to accurately
       measure and report its processing time performance, relative to the established processing time
       goals. This recommendation is unresolved and open.

Recommendation 2 - Establish and report disaster loan processing time goals based on actual average
processing times, net of automatically declined and pre-loss verification declined applications.
Additionally, we recommend the established goals also consider the full processing time for all
applications with withdrawals that had reacceptances.

       Management Comments (Verbatim)

       ODA partially agrees with this recommendation. ODA agrees to explore whether there is a way
       to consider “reaccepted withdrawals” without double counting time already spent on the
       application.

       ODA does not agree to establish and report average processing-time goals net of auto and pre-
       LV decline actions. The auto and pre-LV decline actions represent a key portion of ODA’s loan
       volume; therefore, removing them would result in a misrepresentation of ODA’s actual
       performance outputs, outcomes and overall efficiency of operations.

       OIG Response

       Management’s response did not address the OIG’s recommendation for the SBA to develop
       processing time goals based upon historical performance and actual average processing times.
       If the SBA’s current processing time goal is, in fact, 27 days for home loan applications and 30
       days for business loan applications, these goals should be based upon historical performance.
       During the audit, we requested an explanation of the basis of the processing time performance
       goals; however, SBA management did not provide written support for how these goals were
       established. These goals did not appear to be based upon historical performance. We believe,
       in the absence of other factors, historical performance should be used as the basis for
       establishing future goals.

       We understand that the SBA does not wish to report average processing times for auto-declines
       and pre-LV declines separately from overall average processing time. However, as stated in our
       response to management’s comments to recommendation number one above, in order for the
       SBA to measure and report its success in delivering quick, efficient disaster assistance, we
       believe that the average time to automatically decline applications must be segregated from the
       time to successfully process applications that ultimately provide disaster assistance.

       Management’s comments were only partially responsive to recommendation two. This
       recommendation is unresolved and open.

Recommendation 3 - Establish processing time standards for different application volumes based on
historical performance and include anticipated processing time standards for a range of possible
application volumes in the annual Congressional Budget Justification and Annual Performance Report.


                                                  12
Management Comments (Verbatim)

ODA agrees with this recommendation. ODA has already established approximate processing
time standards for a range of possible application volumes, which are included in the most
recent update of ODA’s Disaster Playbook and will be included in the 2014 Disaster
Preparedness and Recovery Plan. ODA agrees to work with OCFO to include those standards in
the CBJ and APR.

OIG Response

Management’s comments were responsive to recommendation three. This recommendation is
resolved and will remain open until the newly established processing time standards are
included in the Congressional Budget Justification and Annual Performance Report. The
agency’s anticipated target date for final action is December 31, 2014.




                                        13
Appendix I: Scope and Methodology
The scope of the audit was limited to a review of the accuracy and attainability of disaster loan
processing time goals from FY 2008 to FY 2013, as published in the annual Congressional Budget
Justification and Annual Performance Reports.6 To achieve the audit objectives, we obtained raw data
from the Disaster Credit Management System (DCMS) Operations office. The data contained a
comprehensive list of all disaster loan applications with a loan approval or denial decision between
January 1, 2007, and December 31, 2013. We used the data from FY 2007 to determine the beginning
inventory of loans as of October 1, 2008, by identifying the decision date for each application and
eliminating applications that were processed to a decision prior to October 1, 2008. We then computed
the average monthly and annual processing times for each of the three primary types of disaster loans:
home, business and EIDL, based upon the date each application was received.

We computed the total monthly and annual processing time for each of the three loan types excluding
the processing time for applications automatically declined by DCMS and for applications quickly
rejected prior to loss verification. In addition, for applications previously withdrawn and reaccepted, we
added all of the time the SBA had the loan available for processing each time the loan was reaccepted.
We determined the average processing time for the loans based upon the date the application was
originally accepted by the SBA. We compared the SBA’s actual performance related to achieving
processing time goals as stated in the SBA’s annual Congressional Budget Justification and Annual
Performance Report to its performance as we calculated it based upon our revised methodology.

We also computed the average annual processing time for applications that were automatically declined
and those that were quickly rejected prior to loss verification.

Additionally, we sorted the data containing the list of applications based upon monthly application
volume received and determined the average processing time for various application volumes. We then
compared the average processing time at various application volumes to the applicable goal and
identified whether or not the SBA met its goal for specific application volumes.

During our audit survey work, we performed site visits at the Fort Worth Processing and Disbursement
Center and interviews with Loan Officers and Senior Loan Officers who processed Hurricane Sandy
disaster loans. Finally, we interviewed key officials from the Office of Disaster Assistance regarding
processing standards and goals for Hurricane Sandy and for fiscal years prior to Hurricane Sandy.

Use of Computer-Processed Data

We relied on data provided by the DCMS Operations office that was generated from DCMS. The DCMS
Operations office identified the disaster loan applications received between January 1, 2007, and
December 31, 2013, which were processed to a final loan decision. We believe the information is
reliable for the purposes of this audit.




6
 We reviewed the FY 2013, FY 2014 and FY 2015 Congressional Budget Justification and Annual Performance Reports, which
collectively, included targeted and actual standards and goals for processing-time performance for FY 2008 through FY 2013.

                                                             14
Prior Coverage

U.S. Government Accountability Office Audit Reports

       Report GAO-06-860, Small Business Administration, Additional Actions Are Needed to Provide
       More Timely Disaster Assistance, issued July 2006.

       Report GAO-07-114, Small Business Administration, Additional Steps Needed to Enhance Agency
       Preparedness for Future Disasters, issued February 2007.

       Report GAO-07-1124T, Small Business Administration, Response to the Gulf Coast Hurricanes
       Highlights Need for Enhanced Disaster Preparedness, issued July 25, 2007.

       Report GAO-09-755, Small Business Administration Additional Steps Should Be Taken to Address
       Reforms to the Disaster Loan Program and Improve the Application Process for Future Disasters,
       issued July 2009.

       Report GAO-10-735T, Small Business Administration Continued Attention Needed to Address
       Reforms to the Disaster Loan Program, issued May 19, 2010.

Small Business Administration-Office of Inspector General Reports

       Audit Report 13-10, The Small Business Administration Did Not Effectively Assess Disaster
       Assistance Staffing Requirements, Availability, and Readiness, issued January 25, 2013.




                                                  15
Appendix II: Management Comments




                   U.S. SMALL BUSINESS ADMINISTRATION
                   WASHINGTON, D.C. 20416




Date:            June 19, 2014

To:              Robert A. Westbrooks
                 Deputy Inspector General

From:            James E. Rivera
                 Associate Administrator
                 Office of Disaster Assistance

Subject:         OIG Draft Report – Improving Accuracy of Performance Reporting to Better
                 Manage Disaster Loan Processing Time Expectations
                 (Project No. 13801)


We have reviewed the OIG Draft Report. The objectives of this audit were to determine whether
the SBA met its processing time goals for disaster loans and whether the published goals were
attainable.7 Thank you for the opportunity to respond to the Draft Report.

The mission of the SBA Disaster Loan Program is to help disaster survivors recover from
disasters and rebuild their lives by providing affordable and timely financial assistance to
businesses, homeowners and renters. Consistent with the mission to provide affordable and
expedient disaster assistance, SBA remains committed to providing assistance quickly and
effectively, in recognition of the significant stress and other challenges the disaster communities
and survivors are experiencing at the time.

The audit report concludes that (1) The SBA Generally Did Not Meet Its Disaster Loan
Processing Time Goals for Business Loans and EIDLS and (2) The SBA’s Processing Time
Goals Were Not Always Achieved During Periods of High Application Volume. As discussed in
greater detail below, SBA’s Office of Disaster Assistance (ODA) disagrees with OIG’s
conclusions and the underlying assumptions and methodologies used to reach those conclusions.



7
 The original objective of this audit was to determine whether the approval rates for Superstorm Sandy were
consistent with other major disasters. However, this objective was changed after the OIG determined that ODA’s
Superstorm Sandy approval rates exceeded approval rates for other major disasters.

                                                      16
The SBA Generally Did Not Meet Its Disaster Loan Processing Time Goals for Business
Loans and EIDLS

We strongly disagree with the OIG’s conclusion that the SBA generally did not meet its disaster
loan processing time goals from FY 2008 to FY 2013. Furthermore, we believe the OIG report
misrepresents SBA’s performance and overall efficiency of operations.

SBA places great importance on the collection and analysis of disaster-related data and on the
integrity of that data. The methodology currently employed by SBA in its calculation of disaster
loan processing times, which includes auto and pre-LV declined applications, provides a
complete and accurate reporting to Congress and other oversight officials of loan processing
performance. The methodology applied is based on the time it takes to process an approval,
decline or withdrawal action, which involves one or more of the following loan processing
functions: application intake, loss verification, processing and legal review. Under that
methodology, SBA generally did meet its disaster loan processing time goals from FY 2008
through FY 2012.

We are concerned that the methodology used by the OIG to determine average processing time
fails to recognize the processing time for auto and pre-LV declined applications. SBA does not
omit auto and pre-LV declines when measuring loan processing time goals because doing so
would result in an incomplete and inaccurate representation of SBA’s full performance. While
auto and pre-LV declined applications require less time to reach a loan decision and do not
advance to loss verification, they are a fundamental part of the overall process. The loan
processing performance metric measures how well the entire process is performing; it is not
limited to select loan processing functions.

Further, we strongly disagree with the OIG report when it states that standard processing times
were not relevant to these types of decisions (auto and pre-LV declines). These types of
applications represent loan volume and go through the application intake process and advance
either to pre-LV (auto-decline or review), loss verification or to loan processing. The pre-LV
review process requires a Supervisory Loan Officer (SLO) to review applications, make needed
data corrections that may overcome the decline code(s), and confirm or override the decline if
warranted. Auto and pre-LV declines are processed faster and the streamlined decisions result in
less work for the applicant and minimize unnecessary file aging. Streamlined decisions enable
ODA to accomplish its mission to provide affordable and expedient disaster assistance while
managing costs and expediting declined applicant referrals to grant providers. We believe
removing auto and pre-LV declines from SBA’s performance reporting would substantially
distort ODA’s performance outputs and outcomes.

Processing time performance goals were generally not achieved beyond certain application
volume levels

We strongly disagree with OIG’s assertion that SBA “began to significantly fall short of its
processing time goals” when we received over 3,000 applications per month. The OIG analysis is
incomplete and misleading because it omits a significant portion of loan volume in auto and pre-

                                               17
LV declines where SBA exceeds the performance standards. It should also be noted that OIG’s
report is misleading when it claims “the SBA did not consider the impact of loan application
volume when creating its disaster loan processing time standards.” OIG neglected to use SBA’s
performance standards which were adjusted to account for increased loan volume. OIG
calculations are based on a 14 and 18 day standard for home and business loan processing,
respectively; however, we advised OIG during their audit field work that SBA adjusted its FY
2013 standards to 27 and 30 days due to the high application volume generated by Superstorm
Sandy. The FY 2015 Congressional Budget Justification (CBJ) and FY 2013 Annual
Performance Report, referenced in OIG’s report, clearly explains that the 14 and 18 day
standards are based on a normal year’s activity of 40,000 home, 10,000 business and 2,000 EIDL
loan applications; however, in FY 2013 we processed over 96,000 home, 15,500 business and
3,200 EIDL loan applications.

SBA is committed to improving communication to disaster survivors. We believe, however, that
OIG’s recommendation to include anticipated processing time standards for a range of possible
application volumes in the CBJ in order to provide more accurate estimates to disaster survivors
is misguided. This approach would require that disaster survivors know the volume of
applications SBA is currently processing before looking up the corresponding number of days to
process. Publishing volume-based processing time standards in performance reports as a way to
communicate expected processing times to disaster survivors is not an effective solution. Instead,
SBA has made improvements to communication with disaster survivors using a more focused
and targeted approach. We recently implemented a new “Three Step Process” messaging strategy
that communicates to disaster survivors that, for most disasters, it may take up to 2-3 weeks to
reach a loan decision. The new messaging strategy allows for flexibility to accommodate
fluctuating application volume.

Internal Controls

We strongly disagree with the OIG’s assertion that there were limited internal controls in place to
ensure timely disaster loan processing, to ensure adherence to the processing-time standards or to
implement specific planned corrective actions when the SBA began to miss its defined
processing-time goals.

As discussed with the OIG on several occasions, ODA did identify weaknesses in the
management of disaster loan processing related to meeting established time standards and
addressed those weaknesses throughout the Superstorm Sandy response by making adjustments
to its processes through corrective actions. In fact, it was because of the internal controls
already in place (e.g., monitoring of daily production reports, daily meetings with the PDC
management to discuss production, staffing, and technical issues, bi-weekly meetings with all
Center Directors to discuss cross organizational issues) that ODA was able to identify
weaknesses early on.

To address the challenges we experienced during Superstorm Sandy, and in an effort to
continually improve efficiency and effectiveness for future disasters, we developed and
implemented process improvements. The following significant improvements were implemented
soon after we determined that adjustments needed to be made to our processes:

                                                18
      We created distinct processing tracks for home and business loans, including routing loan
       applications eligible for RAPID processing.
      We improved the workflow for receiving Electronic Loan Applications.
      We developed new or improved metrics for all frontline positions that affect file aging,
       including application intake, loss verification, and loan processing.
      We established new processes to identify and mitigate system performance issues in
       Disaster Credit Management System.

We also identified and addressed through regulatory changes additional process improvements as
follows:

      We amended SBA regulations to increase the unsecured loan limits from $14,000 to
       $25,000 on physical damage loans in Presidential-IA disaster declarations and up to
       $25,000 on EIDL loans for all declarations.
      We amended SBA regulations to allow for an expedited approval process (RAPID) for
       both home and business loans.

These process improvements were developed and implemented by cross organizational teams
and will significantly improve the delivery of services to disaster survivors.

We have the following technical comments on statements in the Draft Report:

Draft Report – Comments

Page 2, Paragraph 5
“On October 29, 2012, Hurricane Sandy made landfall in southern New Jersey. The massive
storm affected several states along the east coast. Subsequently, the President issued thirteen
major disaster declarations for Hurricane Sandy. The SBA processed 122,798 disaster loan
applications in FY 2013, with approximately 85,356 applications (70 percent) related to
Hurricane Sandy. This was more than double the number of applications processed in each of
the preceding years.”

Agency Response: The above statement is not accurate. In connection with Superstorm Sandy, the
President issued major disaster declarations for individual assistance for four states and SBA
issued five additional Agency declarations. Furthermore, to correct the numbers in the Draft
Report, please reflect that SBA processed 115,057 disaster loan applications in FY 2013, not
122,798, with approximately 85,356 applications (74 percent) related to Superstorm Sandy.

Page 2, Paragraph 6
“According to a May 2013 report by Ranking Member Nydia M. Velázquez (D-NY) of the House
Committee on Small Business, ‘homeowners and businesses impacted by Sandy experienced
processing delays of 30 days and 46 days, respectively’ According to this report, business loan
approval rates were also down compared to previous disasters.”



                                                19
Agency Response: The report referenced is based on loan activity through March 2013 and is
being compared to past disasters, but the physical deadlines for Superstorm Sandy ended on
April 13, 2013 for New York and on May 1, 2013 for New Jersey. The low business approval
rates referenced in the above referenced report rose from 24 percent, at the time of the report, to
42 percent, which would rank Superstorm Sandy as one of the highest when compared to past
disasters…the exact opposite of what is stated in the report.

Page 4, Paragraph 1
“According to our analysis, the SBA was generally unable to meet its disaster loan processing
time performance goals.”

Agency Response: We strongly disagree with the OIG finding that SBA was generally unable to
meet its disaster loan processing time performance goals from FY 2008 through FY 2012. As
discussed above, OIG may not agree with the methodology ODA uses to calculate processing
times; however, ODA has been consistent as to that methodology and it is not appropriate for
OIG to create a new methodology and measure ODA’s performance against it retroactively.

Page 4 Paragraph 1- last sentence
“Averaging the short processing time for auto and pre-LV declined applications together with
the longer processing times distorted the average processing time for 60 percent of loan
applications that were subjected to standard processing.”

Agency Response: We do not omit auto and pre-LV declines from our average processing or
cycle time calculation because doing so would result in an incomplete and inaccurate
representation of SBA’s full performance. SBA’s performance measure takes into account all
types of processing decisions regardless of whether they are faster auto decline decisions or
longer, more complex loan processing decisions.


Page 4 Paragraph 2
“By employing this methodology, the SBA’s reported performance did not clearly communicate
to applicants, Congress, and other oversight officials how long it took to process the majority of
the disaster loan applications received.”

Agency Response: We strongly disagree with OIG. We have been consistent and transparent in
our communications to applicants, Congress and other oversight officials. The methodology
currently employed by SBA in its calculation of disaster loan processing times, which includes
auto and pre-LV declined applications, provides an accurate report of ODA’s loan processing
performance. Our methodology is based on the time it takes to process an approval, decline or
withdrawal action, which involves one or more of the following loan processing functions:
application intake, loss verification, processing and legal review. While auto and pre-LV
declines require less time to reach a loan decision and do not advance to loss verification, SBA
still incorporates these actions in its reporting to Congress and oversight officials in order to
report our full performance accurately.




                                                 20
   With regard to disaster survivors, SBA firmly believes that consistent messaging through direct
   communications and targeted outreach is the best strategy to effectively communicate how long
   it will take to process disaster loan applications. Regular performance reports to Congress and
   other oversight officials are used to report SBA’s past performance; they are not an effective tool
   for communicating “expected” cycle times to disaster survivors. In response to the lessons
   learned during Superstorm Sandy, SBA launched a new “Three-Step Process” communications
   strategy that communicates a consistent message to the public. SBA communicates to applicants,
   either directly or indirectly through traditional news media and online channels, that it could take
   up to 2-3 weeks to reach a loan decision for most disasters. The new communication strategy
   allows for more flexibility during times of higher loan volume.

   OIG Recommendations and Agency Response

1) Report the processing time for automatically declined applications and pre-loss verification
   declined applications separately from applications that require more extensive processing,
   rather than continue averaging these processing times together.

   ODA Response: ODA disagrees with this recommendation.
   We believe it is important to continue to include all processed applications when calculating and
   reporting average processing times. The methodology used by OIG to arrive at its
   recommendation to exclude auto and pre-LV declines from the average processing time
   calculation is flawed because it would result in an inaccurate representation of ODA’s full
   performance. ODA places great importance on the collection and analysis of disaster-related data
   and on the integrity of that data. The methodology applied is based on the time it takes to process
   an approval, decline or withdrawal action, which involves one or more of the following loan
   processing functions: application intake, loss verification, processing and legal review. Ignoring
   the processing time for auto and pre-LV decline actions would present an incomplete picture of
   ODA’s performance. ODA will continue its consistent reporting of average processing times for
   applications, including auto and pre-LV declined applications.

   As an alternative to the OIG recommendation, ODA would agree to make available upon request
   the processing times of auto declines, pre-LV declines, and all other applications processed.
   ODA also will continue to enhance its communications efforts to disaster survivors and
   stakeholders to ensure awareness of estimated processing times.

2) Establish and report disaster loan processing-time goals based on actual average processing
   times, net of automatically declined and pre-loss verification declined applications. Additionally,
   we recommend the established goals also consider the full processing time for all applications
   with withdrawals that had reacceptance.

   ODA Response: ODA partially agrees with this recommendation.
   ODA agrees to explore whether there is a way to consider “reaccepted withdrawals” without
   double counting time already spent on the application.

   ODA does not agree to establish and report average processing-time goals net of auto and pre-
   LV decline actions. The auto and pre-LV decline actions represent a key portion of ODA’s loan

                                                    21
   volume; therefore, removing them would result in a misrepresentation of ODA’s actual
   performance outputs, outcomes and overall efficiency of operations.

3) Establish processing-time standards for different application volumes based on historical
   performance and include anticipated processing time standards for a range of possible
   application volumes in the annual Congressional Budget Justification and Annual Performance
   Report.

   ODA Response: ODA agrees with this recommendation.
   ODA has already established approximate processing time standards for a range of possible
   application volumes, which are included in the most recent update of ODA’s Disaster Playbook
   and will be included in the 2014 Disaster Preparedness and Recovery Plan. ODA agrees to work
   with OCFO to include those standards in the CBJ and APR.




                                                22
                                                                               MEMORANDUM TRANSMITTAL


DATE:           June 30, 2014

To:             The Honorable Maria Cantwell
                Chairman, Committee on Small Business and Entrepreneurship
                United States Senate

                The Honorable James E. Risch
                Ranking Member, Committee on Small Business and Entrepreneurship
                United States Senate

Subject:        Office of Inspector General memorandum


In response to a request for information by the U.S. Senate Committee on Small Business and
Entrepreneurship, the SBA Office of Inspector General prepared the following memorandum. This
memorandum presents further analysis of the data presented in OIG Audit Report 14-14, Improving
Accuracy of Performance Reporting to Better Manager Disaster Loan Processing Time Expectations.
Specifically, this additional analysis is of Hurricane Sandy disaster loan applications submitted to the
Small Business Administration (SBA). We have also included a brief summary of the agency comments
and OIG analysis below. We conducted the above-referenced audit in accordance with generally
accepted government auditing standards. This memorandum will be attached to Audit Report 14-14.

Please direct any questions to me at (202) 205-7100 or Andrea Rambow, Acting Director, Credit
Programs Group at (202) 205-4428.
                                                  ***

/s/
Robert A. Westbrooks
Deputy Inspector General
Introduction
This memorandum presents the results of analysis that was performed in June 2014, upon the request
of the U.S. Senate Committee on Small Business and Entrepreneurship. The analysis was performed
specifically to provide the following requested information:

         (1)    Once a prospective borrower was determined by the SBA to be a qualified borrower,
                how many days on average did it take the SBA to process Hurricane Sandy home,
                business and economic injury disaster loans? and,
         (2)    By how many days, on average, did the agency exceed its processing standards for all
                types of Hurricane Sandy disaster loans?

The Committee also requested Hurricane Sandy loan application and volume information, which we also
provided in this memorandum. Our scope and methodology for this analysis is presented in Appendix I
to this memorandum.

Background
In May 2014, our office issued a draft report titled, Improving Accuracy of Performance Reporting to
Better Manage Disaster Loan Processing Time Expectations to the Small Business Administration (SBA).
Our objective was to determine whether the SBA met its processing time goals for disaster loans and
whether its published goals were attainable. The scope focused on the accuracy and attainability of
disaster loan processing time goals from FY 2008 to FY 2013, as published in the Agency’s annual
Congressional Budget Justification and Annual Report.

Results
In order to address the specific items, we performed an additional analysis of data in the SBA’s Disaster
Credit Management System as it related to only Hurricane Sandy (See Appendix I for the Scope and
Methodology). Our results are as follows:

Question 1: Once a prospective borrower was determined by the SBA to be a qualified borrower, how
many days on average did it take the SBA to process Hurricane Sandy home, business and economic
injury disaster loans?

Table 1, below, includes the total average number of days needed to process all Hurricane Sandy
disaster loan applications that were processed to a final decision (Column D).




                                                    2
Table 2 Average Number of Days to Process Hurricane Sandy Applications
       A                           B                                 C*                                  D
   Loan Types          Average Number of Days            Average Number of Days to           Total Average Number of
                      to Decline via Auto-decline            Process a Qualified                  Days to Process
                        or Pre-loss Verification         Borrower’s Application to a         Hurricane Sandy Disaster
                                                                  Decision                             Loans
 Home                            4 days                           33 days                             37 days
 Business                        3 days                           57 days                             60 days
 EIDL                            3 days                           48 days                             51 days
*Column C includes time spent on reacceptances and withdrawals, i.e., all actual time spent on processing loans after the Auto-
decline or pre-Loss Verification stage.


Agency Comments and OIG Analysis
In its response, the SBA stated that it took on average 28.72 days to process disaster home loan applications, 45.6
days to process business applications and 37.68 days to process economic injury disaster loan applications. The
difference between the OIG’s and SBA’s average number of days to process each type of loan is based on the
different methodologies used by the agency and the OIG to calculate application processing times. As presented in
SBA OIG report 14-14, the OIG does not include applications that were automatically declined or declined at the
pre-loss verification stage so as not to distort the overall average amount of time needed to process disaster loan
applications to a decision. The OIG does include the time spent on applications that had been previously
submitted and withdrawn, but later reaccepted, which better reflects the amount of time needed to process each
type of loan to a decision.


Question 2: By how many days on average did the agency exceed its processing standards for all types of
Hurricane Sandy disaster loans?

Table 2 below presents the average number of days to process Hurricane Sandy disaster loans as
compared to the agency’s standard (14 and 18 days), as well as the number of days the agency
exceeded its standard (Column D). Calculations exclude automatically-declined and pre-loss verification
applications, and includes all time spent on withdrawn and reaccepted applications.
Table 3 SBA's Standards vs. Hurricane Sandy Application Processing Time vs.
      A                       B*                                C                                     D
  Loan Types      Standard Used by the SBA          Average Number of Days to              Average Number of Days
                      for Disaster Loans              Process Disaster Loans            Exceeding Agency Standard (in
                  including Hurricane Sandy                                                       column B)
 Home                      14 days                              37 days                            23 days
 Business                  18 days                              60 days                            42 days
 EIDL                      18 days                              51 days                            33 days
*The agency reported in its CBJ, standards for home and business/EIDLs of 27 and 30 days, respectively. But during the audit,
Agency officials stated that the standards applied were 14 and 18 days.


Agency Comments and OIG Analysis
The SBA reported in its CBJ, a 27-day standard to process a disaster home loan and a 30-day standard to process a
disaster business loan. But during the audit, in an email to the OIG dated May 1, 2014, the agency stated that it
actually used a 14-day standard for home loans and an 18-day standard for business loans, despite what it
reported in its CBJ. The OIG used the standards from the May 2014 email for its calculations. The difference
between the OIG’s and the SBA’s calculation of average number of days exceeding the agency standard is, in part,
based on a different methodology (as explained above), and the different standards used as the basis for the
calculation.


                                                               3
Additional Information

We were also requested to provide Hurricane Sandy application and volume information. According to
our analysis of Hurricane Sandy disaster loan applications that were processed to a final decision:

          First Application Date – October 31, 2012
          Last Application Date – December 30, 2013
          Number of applications – 69,639
          Number of approved applications - 35,555
          Total Dollar Amount of Approved Loans - $2,378,359,800
          Total Number of Applications denied – 34,084
                o Auto declines - 4,393
                o Pre-Loss Verification declines – 9,895
                o Auto-declines and Pre-LV Rate =21 percent


Agency Comments and OIG Analysis
The agency states that the number of Hurricane Sandy disaster loan applications submitted was 85,446.
The agency stated that the OIG figures above do not include withdrawn files. According to the agency
these additional applications result in a lower auto-decline and pre-loss verification rate which the
agency reports as 17 percent.




                                                  4
Appendix I: Scope and Methodology

The scope of the analysis was limited to Hurricane Sandy disaster loan applications submitted to the SBA
from October 31, 2012, to December 30, 2013. We reviewed the attainability of disaster loan
processing-time standards. We obtained raw data from the Disaster Credit Management System
(DCMS) Operations Office. The data contained a comprehensive list of all disaster loan applications with
a loan approval or denial decision between January 1, 2007, and December 31, 2013. We then
computed the average processing times for each of the three primary types of Hurricane Sandy disaster
loans: home, business, and EIDL, based upon the date each application was received and the decision
date.

We computed the processing time for each of the three loan types, excluding the processing time for
applications automatically declined by DCMS, and for applications quickly rejected prior to loss
verification. In addition, for applications previously withdrawn and reaccepted, we added all of the time
the SBA had the loan available for processing each time the loan was reaccepted. We determined the
average processing time for the loans based upon the date the application was originally accepted by
the SBA, including the additional processing time after reacceptances. We compared the SBA’s actual
performance related to achieving processing-time standards to its performance as we calculated it
based upon our revised methodology.

Use of Computer-Processed Data

We relied on data provided by the DCMS Operations Office that was generated from DCMS. The DCMS
Operations Office identified the disaster loan applications received between January 1, 2007, and
December 31, 2013, which were processed to a final loan decision. We believe the information is
reliable for the purposes of this analysis.




                                                    5
